               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




          Information Storage Security

                        Audit Report




                                              March 27, 2014

Report Number IT-AR-14-004
                                                                      March 27, 2014

                                                      Information Storage Security

                                                        Report Number IT-AR-14-004




BACKGROUND:                                oversight of the storage teams. They did
The U.S. Postal Service Information        not, for example, conduct periodic
Technology, Computer Operations, Data      employee access reviews. The absence
Management Services group manages          of proper security practices and training
a     petabyte storage environment         increases the likelihood of an adverse
(equating a byte to 1 second, a petabyte   impact on Postal Service operations,
is 35.7 million years). This environment   such as an outage of a customer-
supports 230 systems and applications      dependent system.
containing various categories of data,
such as personal employee information,     In addition, the Corporate Information
which have different protection            Security Office did not provide guidance
requirements that reflect their level of   for storage environments as it has for
sensitivity. The Postal Service spends     operating systems, databases, and
about $30 million annually on storage      telecommunication security.
components.                                Establishing minimum security
                                           expectations for storage environments
The Data Management Services group         can reduce the likelihood of critical
includes two storage teams – Storage       system and application outages
Deployment and Architecture – which        throughout Postal Service operations.
manage storage-based hardware in the
non-mainframe environment.                 WHAT THE OIG RECOMMENDED:
                                           We recommended management
                                           establish operating procedures and
                                           security requirements and improve
                                           oversight of storage environments. We
A system outage in 2010 revealed that      recommended management also ensure
Postal Service storage environments        personnel are trained to maintain
were never subject to security reviews     storage skills. In addition, we
or audits. Our objective was to assess     recommended management develop a
the security of information storage        schedule to bring the storage
environments managed by this group.        environment into compliance with
                                           established requirements. Finally, we
WHAT THE OIG FOUND:                        recommended the Corporate
The Data Management Services group         Information Security Office establish
did not manage the storage environment     security requirements for storage
in accordance with Postal Service          environments.
security requirements because its
managers did not provide adequate          Link to review the entire report
March 27, 2014

MEMORANDUM FOR:            JAMES P. COCHRANE
                           CHIEF INFORMATION OFFICER AND EXECUTIVE VICE
                           PRESIDENT

                           JOHN T. EDGAR
                           VICE PRESIDENT, INFORMATION TECHNOLOGY

                                 E-Signed by Sean Balduff
                            ERIFY authenticity with eSign Deskto




                           for
FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Information Storage Security
                           (Report Number IT-AR-14-004)

This report presents the results of our audit of Information Storage Security (Project
Number 13BG010IT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Sean Balduff, acting director,
Information Technology, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Information Storage Security                                                                                        IT-AR-14-004




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Data Management Services’ Oversight of Storage Teams.............................................. 2

Guidance for Storage Environments ............................................................................... 4

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Data Management Services’ Management Oversight ................................. 9

Appendix C: Management's Comments ........................................................................ 14
Information Storage Security                                                                            IT-AR-14-004




Introduction

This report presents the results of our self-initiated audit of Information Storage Security
(Project Number 13BG010IT000). Our objective was to assess the security of
information storage environments managed by the U.S. Postal Service Information
Technology (IT), Computer Operations, Data Management Services (DMS) group. See
Appendix A for additional information about this audit.

In January 2013, the Postal Service’s DMS group managed over        petabytes1 (PB)
of enterprise-level storage at the IT Centers (ITC) in
Over the past 5 years, Computer Operations has reduced its physical storage footprint
by 50 percent and doubled the amount of storage space. By the end of calendar year
2013, the amount of storage space managed had increased to          .

The storage group was composed of about
               on three teams: DMS Architecture, DMS Storage Deployment, and DMS
Mainframe Storage. This audit focused on the DMS Architecture and DMS Storage
Deployment teams, which manage storage in the non-mainframe environment. 2 The
DMS Architecture team is responsible for managing the configuration of most of the
storage hardware, managing the storage switches, and designing and maintaining the
architectural records for the environment. The DMS Storage Deployment team fulfills
requests for storage by application owners and manages the remaining storage
hardware. Team members reside at the



Roughly                of the two storage teams are contractors – with the majority of
personnel provided by the storage hardware vendor,                         . According to the
storage contract,          is responsible for determining the training necessary to fulfill the
contract requirements; and for tracking the training, skills, education, and experience of
the personnel provided. Postal Service management is responsible for ensuring all
personnel under its supervision, including contractors, receive information security
training. In addition, management is responsible for maintaining training records and
supervising information security responsibilities of its onsite personnel.




1
  A PB is a measure of memory or storage capacity and is equal to 1 million gigabytes. Equating a byte to 1 second,
a PB would equal 35.7 million years.
2
  We did not review storage in the mainframe environment in detail since tests of controls in this area were performed
in concurrent fiscal year (FY) 2013 audit projects.
3
                      members are contractors, including     from        and


                                                          1
Information Storage Security                                                                            IT-AR-14-004



Our audit of a system outage in 2010 revealed that Postal Service storage
environments were not subject to external security reviews or audits. 4 Specifically, the
Postal Service experienced a 4-day outage of                                         in
February 2010 due to an incorrect command executed in the storage environment. As a
result, the Postal Service incurred additional employee overtime and contractor costs for
inputting a backlog of postage statements and restoring             services. The extra
costs incurred by customers to complete the interim manual process negatively
impacted the Postal Service brand and goodwill. In addition, the Postal Service
recognized revenue late, which could have had an adverse affect on financial reporting
had the outage occurred at the end of a quarter or fiscal year.

Conclusion

The DMS group did not manage the storage environment in accordance with
established policies. This occurred because DMS managers did not provide adequate
oversight of the storage environment teams, such as
                           or conducting periodic employee access reviews. In addition,
the Corporate Information Security Office (CISO) did not provide adequate guidance for
securing storage-based information resources. 6       has noted that organizations often
overlook security controls in storage environments.The absence of proper security
practices increases the likelihood of an adverse impact on Postal Service operations,
such as an outage of a customer-dependent system.

Data Management Services’ Oversight of Storage Teams

DMS personnel did not manage the storage environment in accordance with the
security requirements outlined in Postal Service Handbook AS-805. 7 DMS managers
did not adequately oversee the storage teams and failed to develop security operating
procedures and monitor operational security training. The absence of proper security
practices and training increases the likelihood of an adverse impact on Postal Service
operations, such as an outage of a customer-dependent system like the one used to
manage customers’ changes of address.




  Information resources are all Postal Service information assets, including information systems, hardware, software,
data, applications, telecommunications networks, and related resources and the information they contain.
7
  Postal Service Handbook AS-805, Information Security, May 2013, Sections 2-2.10, 8-5.4.3, and 8-5.4.4.

                                                          2
Information Storage Security                                                                         IT-AR-14-004




The absence of adequate DMS management oversight was evident in the following
ways:

   Implementation of Handbook AS-805 — We noted 20 examples in                security
    areas where DMS personnel were not informed how to administer storage
    resources in accordance with Handbook AS-805. For example, administrators were
    not informed how to ensure that a user formally requests account access and
    receives a manager’s review or approval before an administrator creates an account
    on a storage device. In addition, there was no evidence that DMS managers
    periodically reviewed access granted to their team members as required by
    Handbook AS-805. We identified 31 user accounts that either remained on four
    types of devices as duplicates or were not removed after the owners no longer had
    storage responsibilities. We also identified eight default accounts with default
    passwords remaining on four types of storage devices. The majority of the storage
    team members were contractors, and managers are required to supervise the
    information security responsibilities of onsite contractors under their supervision.

   Monitoring of Training — We noted two examples in separate security areas where
    storage administrators were not familiar with a new management tool or a change in
    vendor guidance. In one example, DMS implemented the
                                 in its storage environments. 9       strongly recommends
    that customers enable the                        feature to provide access authorization
    and activity-logging capabilities (required under Postal Service policy) when the
              is installed. The DMS storage administrators elected not to enable the
    feature due to concerns that the storage environment lacks 24-hour support. They
    were not aware the feature could be configured to provide the same level of remote
    access previously provided to           without requiring 24-hour support by the Postal
    Service. Postal Service IT policies dictate that business and line managers and
    supervisors are responsible for ensuring all personnel under their supervision
    receive information security training. In addition, these managers are responsible for
    maintaining training records and supervising information security responsibilities of
    their onsite contractor personnel.

See Appendix B, Table 1 for a complete list of the security areas and examples of
noncompliance noted during the audit.

Storage environments are subject to numerous risks, including data loss or exposure,
system outages, and data corruption. In the event of a storage-related outage, the
Postal Service would likely experience additional overtime and contractor costs related
to restoring the system, plus potential manual processing efforts. In addition, if an
outage were to occur at the end of a quarter or fiscal year, financial reporting could be
adversely impacted by late recognition of revenue. This project did not disclose any


 The           provides     with secure access to remotely monitor and respond to potential problems with its
customers’ storage devices.

                                                        3
Information Storage Security                                                                           IT-AR-14-004



specific risk with particular applications or systems. The potential costs or lost revenue
would vary widely depending on the system impacted, the length of an outage, and
recoverability of lost or corrupted data. Further, any of these conditions during a peak
volume period would likely attract negative press, impact customer satisfaction, and
harm the Postal Service’s goodwill and brand.

Guidance for Storage Environments

CISO did not provide adequate guidance for securing storage-based information
resources. Current Postal Service policy requires that hardware and system software be
configured to information security requirements specific to the Postal Service. 10 Policy
also establishes that CISO is responsible for developing detailed guidance in the form of
handbooks, standards, practices, and hardening 11 policies.       notes that, while
companies often overlook storage security controls, leading enterprises are expanding
security strategies to include more direct protection.

We identified areas where additional guidance for storage environments would improve
security operations. For example:

    DMS-managed storage devices are not synchronized to a trusted, internal Postal
     Service time source. Some devices are synchronized to the vendor’s time source.
     A common, accurate time source across the Postal Service environment would
     ensure that event records from different sources or devices can be correlated when
     necessary.

    Storage devices designated by DMS as supporting non-production environments
     were found to be supporting environments considered production environments by
     their owners. We found the definition of a “production” or a “non-production”
     environment changed based on the function of the speaker – that is, the storage
     team, operating system administrator, or application owner. For example, the
     business team for one application considered the servers used for training to be part
     of a production environment, and expected related devices to be treated as
     production from a support and maintenance perspective. However, the DMS storage
     team was managing the associated storage device as a “non-production” device.
     The primary impact of a “production” versus “non-production” designation is whether
     the stored data is copied and incorporated into disaster recovery procedures.

      promotes security best practices that move beyond a perimeter defense and build
security into the storage infrastructure. By establishing the minimum security
expectations for storage environments, CISO can reduce the likelihood of critical system
outages or corrupted data throughout Postal Service operations. See Appendix B, Table
2 for examples of areas where additional guidance of storage environments would
improve security operations.
10
   Handbook AS-805, Sections 2-2.5 and 8-2.4.2, establish CISO’s responsibility for developing information security
guidance and the requirement for hardware and software hardening.
11
   Hardening is the process of implementing software, hardware, or physical security controls to mitigate risks
associated with the Postal Service infrastructure and critical and sensitive information resources.

                                                         4
Information Storage Security                                                  IT-AR-14-004




Recommendations

We recommend the vice president, Information Technology, direct the manager,
Computer Operations, to:

  1. Ensure Data Management Services management provides security operating
     procedures, periodic reviews, and oversight for the storage teams as required by
     Handbook AS-805, Information Security.

  2. Ensure the vendor for the storage contract provides periodic training to personnel
     to maintain storage group knowledge and skills with vendor products and
     management tools.

  3. Evaluate the storage environment managed by Data Management Services
     against Handbook AS-805, Information Security, security requirements and
     develop a schedule to bring the environment into compliance.

We recommend the chief information officer and executive vice president direct the
manager, Corporate Information Security, to:

  4. Establish minimum security requirements for storage devices in Postal Service
     environments based on industry best practices.

  5. Specifically address storage devices and storage environment security
     requirements within Handbook AS-805, Information Security, to reflect the
     significance of these infrastructure components. This should include guidance on
     consistent use of production and non-production designations among storage
     teams and application owners.

Management’s Comments

Management agreed with all the findings and recommendations in the report. In
response to recommendation 1, management is planning to register resources and
roles in the eAccess system to facilitate regular access reviews. The planned
implementation date is September 30, 2014.

In response to recommendation 2, management will work with the contracting officer to
receive quarterly training reports beginning April 1, 2014.

In response to recommendation 3, management will develop a gap analysis by
May 1, 2014, and provide a plan for corrective actions to the U.S. Postal Service Office
of Inspector General (OIG) by June 1, 2014.

In response to recommendation 4, management from Computer Operations and CISO
will coordinate to establish minimum security requirements for storage in Postal Service
environments by September 30, 2014.

                                            5
Information Storage Security                                                   IT-AR-14-004




In response to recommendation 5, management will update Handbook AS-805,
Information Security, to address storage devices and storage environment security
requirements by September 30, 2014.

See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 2
through 5 and the corrective actions should resolve the issues identified in the report.
Regarding recommendation 1, management’s comments address the recommended
periodic reviews, but do not specifically discuss actions to implement security operating
procedures or oversight for the storage teams. Since security operating procedures and
oversight are required by Handbook AS-805, the OIG will monitor implementation and
compliance for these items through the gap analysis and plan for corrective actions
outlined in management’s response to recommendation 3.

The OIG considers recommendations 1 through 4 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.




                                            6
Information Storage Security                                                                              IT-AR-14-004




                                  Appendix A: Additional Information

Background

At the end of December 2013, DMS managed about      PB of enterprise-level storage 12
at the ITCs in                   . The Postal Service spends about $30 million
annually on storage components.

The DMS-managed storage devices support 230 production IT systems and
applications running on over 1,100 servers 13 at the                          ITCs. For
example, these devices store data for the systems used to process biweekly payroll for
Postal Service employees and to manage changes of address for Postal Service
customers. The devices also support non-production systems and environments. Each
of the storage devices has a combination of numerous categories of stored data 14
including sensitive data, personally identifiable information, and debit and credit card
records. Different categories of data have different protection requirements, including
where the data can be accessed, use of encryption, storage location, and retention
periods.

Objective, Scope, and Methodology

Our objective was to assess the security of information storage environments managed
by DMS. To accomplish our objective, we interviewed officials at Postal Service facilities
in                                                We also reviewed applicable Postal
Service policies and procedures, guidelines, and reports.

Our review focused on the production storage environment managed by DMS at the
        ITC during FY 2013. The scope of our audit included hardware devices such as
disk arrays, 15 servers used for managing the storage environment, and switches
controlling the storage network.

In the absence of Postal Service guidance for hardening storage environments, we
selected several security hardening topics and reviewed DMS-managed storage
devices for compliance. The topics appear in Figure 1.




12
   Enterprise storage is a broad category that includes products and services used to assist large organizations with
large volumes of data and large numbers of users. It usually involves centralized storage repositories.
13
   These include host servers, which, in turn, may support multiple virtual servers.
14
   The Postal Service is mandated to protect information of its customers, employees, and suppliers, and in order to
do so, it categorizes systems and data by sensitive, sensitive-enhanced, personally identifiable information, non-
sensitive, debit and credit card records, Privacy Act records, and financial reporting data required to comply with the
Sarbanes-Oxley Act of 2002.
15
   A disk array is a hardware element that contains a large group of hard disk drives.

                                                           7
Information Storage Security                                                        IT-AR-14-004



                        Figure 1. Hardening Topics Selected for Review

   Change Management                Modems                         Services and Ports
    Practices                        Password Polices               Session Timeout
   Disposal                         Patching Practices             Storage Scripts
   Encryption Services              Role-Based Access Control      Training and Management
   Logging and Log Monitoring       Secure Application              Support
   Management Interfaces             Programming Interface          User Account Management
Source: OIG analysis.

We conducted interviews, assessed security configurations from randomly sampled
production storage devices and software, reviewed controls over access to stored data,
analyzed the storage architecture, and performed other necessary measures to address
the audit objectives. The team also contacted Postal Service contracting officers
regarding several components of the         storage contract. We researched and
identified nine best practices or norms from sources like the Storage Networking
Industry Association (SNIA™) and the National Security Agency, Systems and Network
Analysis Center. We coordinated with the Council of the Inspectors General on Integrity
and Efficiency and did not identify any audit work performed on the security of storage
environments of other agencies.

We conducted this performance audit from July 2013 through March 2014 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on March 5, 2014, and included its
comments where appropriate.

We did not assess the reliability of any computer-processed data for the purposes of
this report. The computer-processed data analyzed during the audit provided the
context for the environment audited and did not significantly affect the findings,
conclusions, or recommendations in this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                                 8
Information Storage Security                                                                       IT-AR-14-004




           Appendix B: Data Management Services’ Management Oversight

The audit focused on production hardware in the DMS-managed storage environment at
the        ITC. Table 1 lists descriptions of types of noncompliance with Handbook
AS-805 across multiple security areas caused by inadequate management oversight. A
check (√) under the device type indicates an issue exists with at least one sample of
that type.

During the audit, members of the DMS storage teams and others initiated corrective
action to address some of the issues we found. These include removing unnecessary
and outdated accounts from storage devices, updating the session timeouts on two
types of devices, implementing the                  to replace modem access, and
conducting a physical inventory of storage devices in the       ITC.

               Table 1: Impact of Inadequate DMS Management Oversight


                     Section A: Implementation of Handbook AS-805
                                                                                       16
                                                                         Device type

                Description


1 Account management
1.1                                                    √           √           √            √         √



1.2                                                                √                                  √

1.3                                                    √                       √            √         √



1.4   User accounts are not periodically               √           √           √            √         √
      reviewed.
1.5   Use of privileged accounts is not                √           √           √            √
      restricted.
1.6   Shared account is not registered.                √           √           √                      √
2 Password policies
2.1                                                    √           √           √                      √


16
       is the contract vendor providing most of the hardware storage devices used by DMS. These include



                                                       9
Information Storage Security                                                                             IT-AR-14-004




                       Section A: Implementation of Handbook AS-805
                                                                                           16
                                                                             Device type

                  Description


2.2   Administrator-level accounts had no                 √                         √
      password expiration.
2.3   No documented approval for non-                     √                         √
      expiring passwords.
2.4                                                       √            √

2.5  No confirmation that vendor defaults       √
     comply with Handbook AS-805.
3 Role-based access control
3.1 No separation of security and               √         √         √        √         √
     administrative duties. 17
4 Idle session timeout
4.1 No idle timeout set.                                                     √
4.2 No confirmation that vendor defaults        √                   √
     comply with Handbook AS-805.
5 Patching practices
5.1 The current process for evaluating         device and                       (which
     incorporates reliance on the vendor for certain aspects, such as testing and
     implementation) is not documented. The current process for evaluating            patches
     is not documented.
6 Use of modems and
6.1 CISO has no record of a DMS request for authorization to use modems. Sixteen of 29
     identified modems remain in operation following implementation of the                  .
     Thirteen of the 16 modems are connected to devices already converted to the             .
6.2 CISO and the Network Connectivity Review Board 18 have no record of a DMS request
     for the                   used in the non-Payment Card Industry environment.
7 Storage scripts
7.1   An external review of a sample storage script did not identify any specific concerns.
      However, based on the extensive use of scripts by the storage teams, security could be
      enhanced with additional oversight for the use of:
        Comments sections that include the purpose, date of creation, author, and platform
          notes (and change record reference).

17
   Most storage devices give administrators the ability to create custom roles as necessary (the exception is
The audit disclosed that vendor default roles were used to grant administrator level authority to accounts regardless
of work responsibilities (that is, account owners or users who are assigned to different DMS teams).
18
   Postal Service Handbook AS-805-D, Information Security Network Connectivity Process, Section 2-6,
September 2009, establishes the Board’s responsibility for evaluating and approving or rejecting requests for Postal
Service connections to external systems, and for reviewing new information resource, infrastructure, and network
connections and their effects on overall Postal Service operations and information security.

                                                          10
Information Storage Security                                                          IT-AR-14-004




                       Section A: Implementation of Handbook AS-805
                                                                             16
                                                               Device type

                  Description


           Techniques to avoid hard coding management workstations within scripts.
8 Asset management
8.1    DMS records of the devices in the storage environment were generally incomplete. The
       teams relied on the vendor’s account manager for records of the location and status of
       storage devices. For example, one               device confirmed during the physical
       inventory did not appear in the records provided by DMS. In another example, two
       servers installed as management servers were not identified by DMS until the end of
       the audit.
8.2    Personnel were unfamiliar with the location, Internet address, or status of a vendor-
       supplied server connected to the storage environment.

                                 Section B: Monitoring of Training

1
1.1                                  was not enabled. If enabled,                 could
    provide compliance with the Postal Service requirement to maintain activity logs and
    provide authorization control while allowing      the necessary level of remote access.
    This would not require 24-hour storage support by the Postal Service.
2 Reliance on outdated commands
2.1       replaced older commands on             devices with a new tool to manage user
    accounts. Although the new tool is available to the DMS team, it continues to manage
    accounts using the older commands.
Source: OIG audit analysis results.

Table 2 provides examples of security areas where additional guidance is needed for
protecting storage environments. The CISO needs to establish minimum security
requirements for individual storage device types to protect operations and data in the
Postal Service environment.




                                                 11
Information Storage Security                                                          IT-AR-14-004




                 Table 2: Additional Postal Service Guidance is Needed


                                        Security Area

1 Storage environments discussed in Handbook AS-805
1.1    Handbook AS-805 does not discuss security for storage environments in a manner that
       reflects the current role it serves in maintaining computer operations. For example, the
       Hardware Security section of the handbook discusses mainframes, network devices,
       servers, workstations, and mobile computing devices; however, there is no section
       dedicated to storage devices.
2 Specific device guidance – for example, hardening standard or baseline
2.1   Handbook AS-805 requires hardware and system software to be hardened to Postal
      Service requirements. Hardening guidance exists for operating systems, databases,
      network and telecommunications; however, the minimum Postal Service requirements
      have not been established for storage devices or switches used within storage
      environments.
3 Interpreting vendor guidance
3.1         guidance for error message logging differs from the Postal Service hardening
      standard for non-storage switches. All error messages are rated from greatest severity
      zero (emergencies such that the system is unusable) to least severity seven (debugging
      messages). The vendor uses severity five (notifications of normal, but significant
      conditions) as the minimum level to be logged, while the Postal Service standard is for
      logging messages no lower than severity six (informational messages).
3.2            security guidance offers three options for authentication credentials and
      encourages organizations to determine the best option for their environment. The Postal
      Service has not determined the best option for the DMS storage environment.
3.3               security guidance on accepting connections from remote clients provides
      parameters to be configured to the organization’s acceptable tolerance levels. The
      Postal Service has not determined the appropriate tolerance levels for the DMS storage
      environment.
4 Logging practices
4.1    The SNIA maintains storage security best practices that include a list of the kinds of
       events that should be logged. The Postal Service has not established the kinds of
       events to be logged by devices in the DMS storage environment. Therefore, the types of
       activity and severity levels logged by DMS-managed switches are inconsistent.
4.2    Several types of DMS-managed storage devices retain logs only on the device. SNIA
       recommends use of centralized audit logging from all sources for automated analysis,
       alerting, and archiving to support compliance, accountability, and security.
5 Synchronized clocks
5.1    DMS-managed storage devices are synchronized to either the vendor’s time source or
       to multiple Postal Service time sources. SNIA best practices include use of a common,
       accurate time source across the environment. While existing hardening standards for
       other Postal Service resources discuss the use of network time protocol, there is no
       guidance provided for storage environments.

                                               12
 Information Storage Security                                                          IT-AR-14-004




                                          Security Area

 6 Account management
 6.1             devices do not provide the ability to monitor password aging for local accounts.
         Guidance should be provided on whether these accounts should be submitted for
         approval as non-expiring password accounts.
 7 Script automation
 7.1     Based on the extensive use of scripts and automation, security could be enhanced with
         additional guidance on the use of:
             An inventory, approval, and management structure for all script automation.
             Documented change control procedures for all script automation.
 8 Production versus non-production
 8.1     Storage devices internally designated as non-production were found to be supporting
         environments considered production by their owners. The definition of what is
         “production” and “non-production” changes based on the speaker – that is, storage
         team, operating system administrator, or application owner.
Source: OIG audit analysis results.




                                                 13
Information Storage Security                                   IT-AR-14-004



                           Appendix C: Management's Comments




                                          14
Information Storage Security        IT-AR-14-004




                               15
Information Storage Security        IT-AR-14-004




                               16
